Case: 19-51188

Document: 00515762246

Page: 1

Date Filed: 03/02/2021

tHmteti States Court of appeals
for tfje jftftfj Circuit
United States Court of Appeals
Fifth Circuit

No. 19-51188

FILED
March 2, 2021

Brian Keith Gorham,

Lyle W. Cayce
Clerk

versus
Bobby Lumpkin, Directory Texas Department of Criminal
Justice, Correctional Institutions Division,
Respondent—Appellee.
Appeal from the United States District Court
for the Western District of Texas
USDC No. 5:19-CV-743
ORDER:
Brian Keith Gorham, Texas prisoner # 01998550, was convicted of
aggravated sexual assault of a child and sentenced to life imprisonment.
Gorham moves for a certificate of appealability (COA) to challenge the
dismissal of his 28 U.S.C. § 2254 petition as time barred and for failure to
raise a cognizable claim. He has also moved to proceed in forma pauperis
(IFP) on appeal and to supplement his brief in support of his COA motion.
^

To obtain a COA, Gorham must make “a substantial showing of the

denial of a constitutional right.” 28 U.S.C. § 2253(c)(2). When a district
court rejects a constitutional claim on the merits, the COA standard requires

%,

Case: 19-51188

Document: 00515762246

Page: 2

Date Filed: 03/02/2021

No. 19-51188
/

that the petitioner “demonstrate that reasonable jurists would find the
district court’s assessment of the constitutional claims debatable or wrong.”
Slack v. McDaniel, 529 U.S. 473T 484 (2000). When the district court denies
a habeas petition on procedural grounds without reaching the merits of the
underlying constitutional claim, the petitioner must show “that jurists of
reason would find it debatable whether the petition states a valid claim of the
denial of a constitutional_right and that jurists of reason would find it
debatable whether the district court was correct in its procedural ruling. ” Id. 'M'
Gorham has failed to make the requisite showing. See id. Accordingly,
his COA motion is DENIED. His motion to proceed IFP is likewise
DENIED. His motion to supplement his COA brief is GRANTED.
/s/ Leslie H. Southwick
Leslie H. Southwick
United States Circuit Judge

i' -

2

V
Filed 11/25/2019 Page 1 of 1

\>Case 5:19-cv-00743 Document 20
\*

c

UNITED STATES DISTRICT COURT
WESTERN DISTRICT OF TEXAS
SAN ANTONIO DIVISION
BRIAN KEITH GORHAM,
TDCJ No. 01998550,
Petitioner,
v.

LORIE DAVIS, Director,
Texas Department of Criminal Justice,
Correctional Institutions Division,
Respondent.

§
§
§
§
§
§
§
§
§
§
§
§

p l LBD
NOV $Siu

ij

Civil No. SA-19-CA-0743-OLG

JUDGMENT
The Court has considered the Judgment to be entered in the above-styled and numbered
cause.
Pursuant to this Court’s Memorandum Opinion and Order of even date herewith, IT IS
HEREBY ORDERED, ADJUDGED and DECREED that Petitioner Brian Keith Gorham’s
Petition for Writ of Habeas Corpus pursuant to 28 U.S.C. § 2254 (ECF No. 1) and Amended
§ 2254 petition (ECF No. 15) are DISMISSED WITH PREJUDICE. All pending motions, if
any, are DENIED, and no Certificate of Appealability shall issue in this case. This case is now
CLOSED.
It is so ORDERED.
SIGNED this the

r

1 sday of November, 2019.
ORLANDO L. GARCIA
Chief United States District Judge

u
Filed 11/25/2019 Page 1 of 8

\ Case 5:19-cv-00743 Document 19

UNITED STATES DISTRICT COURT
WESTERN DISTRICT OF TEXAS
SAN ANTONIO DIVISION
BRIAN KEITH GORHAM,
TDCJNo. 01998550,
Petitioner,
v.
LORIE DAVIS, Director,
Texas Department of Criminal Justice,
Correctional Institutions Division.
Respondent.

§
§
§
§
§
§
§
§
§
§
§
§

FILED
NOV 2 5 2019

CLERK. U.S. DISTRICT COURT
WESTERN DIpTRKH^jjj T£XAS
BY
^OmWcLERK

Civil No. SA-19-CA-0743-OLG

MEMORANDUM OPINION AND ORDER
Before the Court are pro se Petitioner Brian Keith Gorham’s Petition for Writ of Habeas
Corpus pursuant to 28 U.S.C. § 2254 (ECF No. 1), Petitioner’s Memorandum in Support (ECF
No. 2), and Petitioner’s Amended § 2254 petition (ECF No. 15). Also before the Court are
Respondent Davis’s Answer (ECF No. 22) and Petitioner’s Reply (ECF No. 18) thereto.
Petitioner challenges the constitutionality of his 2015 state court conviction foraggravated sexual assault of a child, arguing (1) he received ineffective assistance of counsel on
direct appeal, (2) he received ineffective assistance of counsel during his trial, (3) his trial was
rendered fundamentally unfair due to prosecutorial misconduct, and (4) the state habeas court
committed error during his state habeas proceedings.\jfln her answer, Respondent contends Hie
first three allegations should be dismissed with prejudice as time-barred and the fourth allegation
should be dismissed for failing to raise a cognizable claim.
• Having carefully considered the record and pleadings submitted by both parties, the
Court agrees with Respondent that Petitioner’s first three allegations are barred by the one-year
statute of limitations embodied in 28 U.S.C. § 2244(d)(1) and thejt the fourth allegation fails to

Filed 11/25/2019 Page 2 of 8

Case 5:19-cv-00743 Document 19

raise a cognizable claim. Thus, the Court concludes Petitioner is not entitled to federal habeas
corpus relief or a certificate of appealability.
I. Background
In April 2015, Petitioner was convicted of one count of aggravated sexual assault of a
child and was sentenced to life imprisonment. State v. Gorham, No. 2012-CR-10383 (175th
Dist. Ct., Bexar Cnty., Tex. Apr. 17, 2015) (ECF No. 12-3 at 94). The Texas Fourth Court of
Appeals affirmed his conviction on direct appeal and denied his motion for rehearing on
February 11, 2016. Gorham v. State, No. 04-I5-00305-CR (Tex. App.—San Antonio, feb. 11,
2016, no. pet.). Petitioner did not file a petition for discretionary review (PDR) with the Texas
Court of Criminal Appeals (TCCA).
Instead, Petitioner waited until October 27,2016, to file a state habeas corpus application
challenging his conviction and sentence, which was ultimately dismissed by the TCCA on May
3, 2017, for failing to comply with the Texas Rules of Appellate Procedure. Ex parte Gorham,
No. 84,647-02 (Tex. Crim. App.); (ECF Nos. 12-18, 12-24 at 21). Shortly thereafter, Petitioner
filed a second state habeas application on May 15, 2017, which was eventually denied without
written order by the TCCA on June 5, 2019. Ex parte Gorham, No. 84,647-03 (Tex. Crim.
App.); (ECF Nos. 12-25, 13-22 at 20). Petitioner then placed the instant federal habeas petition
in the prison mail system on June 21,2019. (ECF No. 1 at 15).
II. Analysis
A.

The Statute of Limitations (Claims 1-3).
Respondent contends the first three allegations raised in Petitioner’s federal habeas

petition are barred by the one-year limitation period of 28 U.S.C. § 2244(d). Section 2244(d)
provides, in relevant part, that:

2

Filed 11/25/2019 Page 3 of 8

v Case 5:19-cv-00743 Document 19
•V'*

(1) A 1-year period of limitation shall apply to an application for a
writ of habeas corpus by a person in custody pursuant to the
judgment of a State court. The limitation period shall run from the
latest of—
(A) the date on which the judgment became final by the
conclusion of direct review or the expiration of the time for
seeking such review.
In this case, Petitioner’s conviction became final March 12, 2016, when his time for
filing a PDR with the TCCA expired. See Tex. R. App. P. 68.2 (providing a PDR must be filed
within thirty days following entry of the court of appeals’ judgment); Mark v. Thaler, 646 F.3d
191, 193 (5th Cir. 2011) (holding that when a petitioner elects not to file a PDR, his conviction

il

becomes final under AEDPA at the end of the 30-day period in which he could have filed the
petition) (citation omitted). As a result, the limitations period under § 2244(d) for filing a federal
habeas petition challenging his underlying conviction and sentence expired a year later on March
12,2017. Because Petitioner did not file his § 2254 petition until June 21,2019—over two years
after the limitations period expired—his petition is barred by the one-year statute of limitations
unless it is subject to either statutory or equitable tolling.
1.

Statutory Tolling

Petitioner does not satisfy any of the statutory tolling provisions found under 28 U.S.C.
§ 2244(d)(1). There has been no showing of an impediment created by the state government that
violated the Constitution or federal law which prevented Petitioner from filing a timely petition.
28 U.S.C. § 2244(d)(1)(B). There has also been no showing of a newly recognized constitutional
right upon which the petition is based, and there is no indication that the claims could not have
been discovered earlier through the exercise of due diligence. 28 U.S.C. § 2244(d)(l)(C)-(D).
Similarly, although § 2244(d)(2) provides that “[t]he time during which a properly filed
application for State post-conviction or other collateral review with respect to the pertinent
judgment or claim is pending shall not be counted toward any period of limitation under this
3

t'i

Filed 11/25/2019 Page 4 of 8

v .Case 5:19-cv-00743 Document 19

subsection,” Petitioner’s state habeas applications do not toll the limitations period either. As
discussed previously, the TCCA dismissed Petitioner’s first state habeas application for failing to
comply with the Texas Rules of Appellate Procedure. As such, the application was not “properly
filed” under § 2244(d)(2) and affords Petitioner no tolling effect. See Artuz v. Bennett, 531 U.S^
4, 8 (2000) (“[A]n application is ‘properly filed’ when its delivery and acceptance are in
compliance with the applicable laws and rules governing filings.”); Villegas v. Johnson, 184 F.3dx
467, 470 (5th Cir. 1999); see also Caldwell v. Dretke, 182 F. App’x. 346, 347 (5th Cir. 2006)
(unpublished) (“[Petitioner’s] second application was rejected for failure to comply with lex. R.
App. P. 73.2, and, therefore, did not toll the limitations period because it was not properly
filed.”).1 Likewise, Petitioner’s second state habeas application does not toll the one-year
limitations period because it was not filed until May 2017, two months after the limitations
period expired for challenging his underlying conviction and sentence.

See 28 U.S.C.

§ 2244(d)(2); Scott v. Johnson, 227 F,3d 260, 263 (5th Cir. 2000). Thus, no grounds for
statutory tolling are shown.
2.

Equitable Tolling

In some cases, the limitations period may be subject to equitable tolling. The Supreme
Court has made clear that a federal habeas corpus petitioner may avail himself of the doctrine of
equitable tolling “only if he shows (1) that he has been pursuing his rights diligently, and (2) that
some extraordinary circumstance stood in his way and prevented timely filing.” McQuiggin v.
Perkins, 569 U.S. 383, 391 (2013) (citing Holland v. Florida, 560 U.S. 631, 649 (2010)).
However, equitable tolling is only available in cases presenting “rare and exceptional

1
Indeed, the Supreme Court has indicated that a state court’s ruling that a state habeas application was not
properly filed is “the end of the matter,” precluding such application’s tolling of the statute of limitations for
purposes of the filing of a federal habeas petition. See Carey v. Saffold, 536 U.S. 214,226 (2002); see also Allen v.
Siebert, 552 U.S. 3, 7 (2007) (“Because Siebcrt’s petition for state postconviction relief was rejected as untimely by
the Alabama courts, it was not ‘properly filed’ under § 2244(d)(2).”).

4

' ,Case 5:19-cv-00743 Document 19

J

' i

Filed 11/25/2019 Page 5 of 8

circumstances,” United States v. Riggsfl 14 F.3d 796, 799 (5th Cir. 2002), and is “not intended
for those who sleep on their rights.” Manning v. Epps, 688 F.3d 177, 183 (5th Cir. 2012).
Petitioner has not provided this Court with any valid reason to equitably toll the limitations
period in this case.
Again, the TCCA dismissed Petitioner’s first state habeas application on May 3, 2017,
citing non-compliance with Texas Rule of Appellate Procedure 73.1, which requires that a post­
conviction application for writ of habeas corpus conform to that court’s filing requirements.2
Petitioner contends he is entitled to equitable tolling because the state habeas court created the
non-compliance by erroneously accepting a supplement to Petitioner’s first application, filed by
Petitioner over four months after the original application, that was not set out in the appropriate
form. But it was Petitioner’s own action of filing the supplement—rather than any action taken
by the state habeas court—that ultimately resulted in his application being non-compliant. See
—t> fcf M, •
361 F 3d g90, 897 ^5th Cir 2004) (affirming denial of equitable tolling where
petitioner’s own. action prevented him from asserting his rights). If Petitioner had “properly
filed” his state habeas application in accordance with Texas law, the federal statute of limitations
would have tolled for the entire period his application was pending before the state habeas
courts. Id. at 897. As such, Petitioner has not met his burden of demonstrating a rare or
extraordinary circumstance beyond his control caused the late filing of his federal habeas
petition, and equitable tolling does not apply. Id.\see Jones v. Stephens, 541 F. App’x 499, 503OS (5th Cir. 2013) (unpublished) (finding state court’s failure to timely inform petitioner his state
habeas application was improperly filed under Texas Rule of Appellate Procedure 73.1 did not
constitute an extraordinary circumstance warranting equitable tolling).

2
Texas Rule of Appellate Procedure 73.2 grants the TCCA authority to dismiss an application that does not
comply with Rule 73.1. See, e.g., Ex parte Blacklock, 191 S.W.3d 718,719 (Tex. Crim. App. 2006).
5

Filed 11/25/2019 Page 6 of 8

v. Case 5:19-cv-00743 Document 19
i

Petitioner also asserts that equitable tolling should apply because he is not a trained
lawyer and the prison’s law library is outdated. But Petitioner fails to allege any specific facts
regarding why the prison’s library was inadequate or prevented him from filing a timely habeas
application. See Krause v. Thaler, 637 F.3d 558, 561 (5th Cir. 2011) (emphasizing the prisoner
must factually demonstrate that the subpar library or access thereto actually prevented him from
untimely filing his petition). Moreover, Petitioner’s ignorance of the law, lack of legal training
or representation, and unfamiliarity with the legal process do not rise to the level of a rare or
exceptional circumstance which would warrant equitable tolling of the limitations period. U.S. v.
Petty, 530 F.3d 361, 365-66 (5th Cir. 2008); see also Sutton v. Cain, 722 F.3d 312, 316-17 (5th
Cir. 2013) (a garden variety claim of excusable neglect does not warrant equitable tolling).
Regardless, even assuming the above arguments constitute an extraordinary circumstance
which prevented Petitioner from timely filing, Petitioner fails to demonstrate that he has been
pursuing his rights diligently. Petitioner’s motion for rehearing in the court of appeals was
denied in February 2016, yet Petitioner did not execute his first state habeas corpus application
until October 27,2016, over eight months later. Petitioner fails to establish that his claims could
not have been discovered and presented earlier. Thus, because Petitioner failed to assert any
specific facts showing that he was prevented, despite the exercise of due diligence on his part,
from timely filing his federal habeas corpus petition in this Court, his petition is untimely and
barred by § 2244(d)(1).
B.

Claims Regarding the State Habeas Proceeding (Claim 4).
Petitioner’s fourth claim for relief raises several allegations regarding his state habeas

proceedings.

Such allegations do not entitle Petitioner to relief because alleged errors or

irregularities occurring in state habeas proceedings do not raise cognizable claims for federal
habeas relief. See Henderson v. Stephens, 791 F.3d 567,578 (5th Cir. 2015) (“infirmities in state
6

Filed 11/25/2019 Page 7 of 8

Case 5:19-cv-00743 Document 19

habeas proceedings do not constitute grounds for federal habeas corpus relief’); Ladd v. Stevens,
748 F.3d 637, 644 (5th Cir. 2014) (same). This is because an attack on the validity of a state
habeas corpus proceeding does not impact the validity of the underlying state criminal
conviction. See Rudd v. Johnson, 256 F.3d 317, 319-20 (5th Cir. 2001) (reiterating that “an
attack on the state habeas proceeding is an attack on a proceeding collateral to the detention and
not the detention itself.”) (citations omitted). For this reason, Petitioner’s complaints concerning
his state habeas corpus proceeding do not furnish a basis for federal habeas corpus relief.
III. Certificate of Appealability
The Court must now determine whether to issue a certificate of appealability (COA). See
Rule 11(a) of the Rules Governing § 2254 Proceedings; Miller-El v. Cockrell, 537 U.S. 322,
335-36 (2003) (citing 28 U.S.C. § 2253(c)(1)). A COA may issue only if a petitioner makes “a

ft

substantial showing of the denial of a constitutional right.” 28 U.S.C. § 2253(c)(2). The l
I

Supreme Court has explained that the showing required under § 2253(c)(2) is straightforward
when a district court has rejected a petitioner’s constitutional claims on the merits:

v

The

petitioner must demonstrate “that reasonable jurists would find the district court’s assessment of

l

the constitutional claims debatable or wrong.” Slack v. McDaniel, 529 U.S. 473, 484 (2000).
This requires a petitioner to show “that reasonable jurists could debate whether the petition
should have been resolved in a different manner or that the issues presented were ‘adequate to
deserve encouragement to proceed further.’” Miller-El, 537 U.S. at 336 (citation omitted).
The issue becomes somewhat more complicated when the district court denies relief on
procedural grounds. Id. In that case, the petitioner seeking COA must show both “that jurists of ^
reason would find it debatable whether the petition states a valid claim of the denial of a

CP

constitutional right and that jurists of reason would find it debatable whether the district court
was correct in its procedural ruling.” Gonzalez v. Thaler, 565 U.S. 134, 140-41 (2012) (citing

OlA
7

)

Filed 11/25/2019 Page 8 of 8

^ Case 5:19-cv-00743 Document 19
<,^r

Slack, 529 U.S. at 484). In that case, a COA should issue if the petitioner not only shows that the
lower court’s procedural ruling is debatable among jurists of reason, but also makes a substantial
showing of the denial of a constitutional right.
A district court may deny a COA sua sponte without requiring further briefing or
argument. See Alexander v. Johnson, 211 F.3d 895, 898 (5th Cir. 2000). For the reasons set
forth above, the Court concludes that jurists of reason would not debate the conclusion that
Petitioner was not entitled to federal habeas relief. As such, a COA will not issue.
IV. Conclusion
After careful consideration, the Court concludes that Petitioner’s allegations challenging
the constitutionality of his conviction and sentence (Claims 1-3) are barred by the statute of
limitations set forth in 28 U.S.C. § 2244(d).

The Court also concludes that Petitioner’s

remaining allegation (Claim 4) fails to raise a cognizable claim for federal habeas relief. As a
result, Petitioner is not entitled to federal habeas corpus relief.
Accordingly, IT IS HEREBY ORDERED that:
1.

Federal habeas corpus relief is DENIED and Petitioner Brian Keith Gorham’s

Petition for Writ of Habeas Corpus pursuant to 28 U.S.C. § 2254 (ECF No. 1) and Amended
§ 2254 petition (ECF No. 15) are DISMISSED WITH PREJUDICE;
2.

No Certificate of Appealability shall issue in this case; and

3.

All remaining motions, if any, are DENIED, and this case is now CLOSED.

It is so ORDERED.
SIGNED this the

/

day of November, 2019.

ORLANDO L. GARCIA
Chief United States District Judge
8

